No.

In The
Supreme Court of the Anited States

FMC CorRPoRATION,
Petitioner,
v.
SHOSHONE-BANNOCK TRIBES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel for Petitioner FMC Corporation and a member of
the Bar of this Court, hereby certify that on the 16th day of March, 2020, I caused to
be served three (3) copies of the Petition for a Writ of Certiorari in the above-
referenced case by first-class mail, postage prepaid, upon counsel as listed below:

William F. Bacon
Shoshone-Bannock Tribes
Trial Attorneys Office
P.O. Box 306

Fort Hall, ID 83203

(208) 478-3822
bbacon@sbtribes.com

Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email address.

I further certify that all parties required to be served have been served.

By. 4 . Aten
Gregory G. Garre
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioner
